No. _______

In the
Supreme Court of the United States

Gerald Vontobel,
Petitioner,
v.
James Benedetti, et al.
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Kimberly Sandberg
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Kimberly_Sandberg@fd.org
*Counsel for Gerald Vontobel

I, Kimberly Sandberg, an attorney who is authorized to file a Petition for Writ
of Certiorari on behalf of Gerald Vontobel, hereby certifies that all parties required
to be served have been served on this 26th day of March, 2021, in accordance with
Rule 28.4(a) and 29.3, one copy of the foregoing Petition for Writ of Certiorari,
Appendix, and Motion for Leave to Proceed In Forma Pauperis by delivering said
copy, on consent of opposing counsel, through electronic mail to Erica Berrett, Deputy
Attorney General, 555 E. Washington Ave., Suite 3900, Las Vegas, Nevada 89101.
Dated March 26, 2021.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Kimberly Sandberg
Kimberly Sandberg
Assistant Federal Public Defender

2

